No. 19-__

 

IN THE

Supreme Court of the United States

MARK SOKOLOW, ET AL., PETITIONERS,
v.

PALESTINE LIBERATION ORGANIZATION
AND PALESTINE AUTHORITY,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,990 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 13, 2019.

 

Colin Casey Hoga;
Wilson-Epes Printing Co., Inc.
